No. 19-1079
In the

Supreme Court of the United States
__________________

M.W. WATERMARK, LLC AND
MICHAEL GETHIN, INDIVIDUALLY,
Petitioners,
v.
EVOQUA WATER TECHNOLOGIES, LLC,
Respondent.
__________________
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

__________________

PETITIONERS’ REPLY BRIEF IN SUPPORT
OF PETITION FOR WRIT OF CERTIORARI
__________________
G. Thomas Williams
Counsel of Record
McGarry Bair PC
45 Ottawa Ave. SW, Suite 700
Grand Rapids, MI 49503
Tel: 616-742-3500
Fax: 616-742-1010
gtw@mcgarrybair.com
Counsel for Petitioners

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
CORPORATE DISCLOSURE STATEMENT
The Rule 29.6 corporate disclosure statement
included in the petition for writ of certiorari remains
accurate.

ii
TABLE OF CONTENTS
CORPORATE DISCLOSURE STATEMENT . . . . . . i
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
INTRODUCTION. . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
I.

There are Only Two Undisputed Facts that
are Relevant to this Matter. . . . . . . . . . . . . . . 2
A. Evoqua is not U.S. Filter/JWI . . . . . . . . . . 2
B. The Consent Decree Does Not Contain
Any Language Regarding Assignability by
U.S. Filter/JWI . . . . . . . . . . . . . . . . . . . . . . 3

II.

The Sixth Circuit Did Not Apply This Court’s
Precedents Properly . . . . . . . . . . . . . . . . . . . . 3
A. The Sixth Circuit Ignored Controlling
Supreme Court Precedent . . . . . . . . . . . . . 4
B. The Continued Viability of Armour
is Eviscerated by the Sixth Circuit
Opinion . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

III.

Petitioner Does Not Ask This Court to
Resolve Questions of State Law . . . . . . . . . . . 7

IV.

Petitioners’ Request for Review Identifies a
Stark Split in the Circuits. . . . . . . . . . . . . . . . 9

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

iii
TABLE OF AUTHORITIES
CASES
Blue Chip Stamps v. Manor Drug Stores,
421 U.S. 723 (1975). . . . . . . . . . . . . . . . . . . passim
Burkhardt v. Bailey,
260 Mich. App. 636 (2004) . . . . . . . . . . . . . . . . . . 7
Firefighters Local Union No. 1784 v. Stotts,
467 U.S. 561 (1984). . . . . . . . . . . . . . . . . . . . . . . . 6
Huguley v. General Motors Corp.,
67 F.3d 129 (1995). . . . . . . . . . . . . . . . . . . . . . 9, 10
John Wiley & Sons, Inc. v. Livingston,
376 U.S. 543 (1964). . . . . . . . . . . . . . . . . . . . . . . 10
Mich. Chandelier Co. v. Morse,
297 N.W. 64 (Mich. 1941) . . . . . . . . . . . . . . . . . 4, 5
Moutsopoulos v. American Mut. Ins. Co.,
607 F.2d 1185 (7th Cir. 1979). . . . . . . . . . . . . . . . 7
Plumb v. Fluid Pump Services, Inc.,
124 F.3d 849 (7th Cir. 1997). . . . . . . . . . . . . . . . . 7
Rasheed v. Chrysler Corp.,
517 N.W.2d 19 (Mich. 1994) . . . . . . . . . . . . . . . . . 4
Sault St. Marie v. Engler,
146 F.3d 367 (6th Cir. 1998). . . . . . . . . . . . 4, 6, 11
Shah v. State Farm Mutual Automobile
Insurance Company,
324 Mich. App. 182 (2018) . . . . . . . . . . . . . . . . . . 7

iv
Sprint Communications Co. v. APCC Services, Inc.,
554 U.S. 269 (2008). . . . . . . . . . . . . . . . . . . . . . 6, 7
Thatcher v. Kohl’s Department Stores, Inc.,
377 F.3d 1370 (Fed. Cir. 2005) . . . . . . . . . . . . . 8, 9
U.S. v. Armour & Co.,
402 U.S. 673 (1971). . . . . . . . . . . . . . . . . . . passim
U.S. v. FMC Corp.,
531 F.3d 813 (9th Cir. 2008). . . . . . . . . . . . . 11, 12
U.S. v. ITT Continental Baking Co.,
420 U.S. 223 (1975). . . . . . . . . . . . . . . . . . . . . . . . 6

1
INTRODUCTION
Respondent Evoqua Water Technologies, LLC
(“Evoqua”) did not dispute the facts presented by
Petitioners M.W. Watermark LLC (“Watermark”) and
Mr. Gethin, but provided this Court with a lengthy
counterstatement of the case. Many of the “facts” cited
by Evoqua are allegations from the 2003 Gethin I
Complaint that were denied in full or in part by
Watermark and Mr. Gethin.1 Gethin I, Record 15,
PageID.305-307. Those allegations were never
litigated; Gethin I was settled four months after filing
for a $4,000 payment, mutual releases, an
acknowledgment that neither party admitted any
liability, and entry of a Final Judgment including
Permanent Injunction (the “2003 Consent Decree”).
App. 123-125.
Contrary to Evoqua’s assertion, Petitioners do not
ask this Court to resolve a factual issue. Respondent’s
Brief, at 2. The questions before this Court relate to
whether the 2003 Consent Decree is assignable so that
it may be enforced by Evoqua in this dispute.

1

Evoqua cites to 2003 Dkt. 1-1 PgID.54-55, 57-58 and 58-59.
Respondent’s Brief, at 3-5. However, Gethin I, Record 1-1 does not
contain these pages. Petitioners believe Evoqua intended to cite to
paragraphs 54, 55, 57, 58, and 59, which appear at Gethin I,
Record 1-1, PgID.13-15.

2
ARGUMENT
This Court should grant certiorari to resolve the
legal question of whether state law or federal law is
applied when interpreting a consent decree issued by a
federal court during federal litigation and relating to a
federal question of law.
I.

There are Only Two Undisputed Facts that
are Relevant to this Matter

Petitioners are not asking this Court to resolve any
factual issues between the parties because only two
undisputed facts are relevant: (1) within the four
corners of the 2003 Consent Decree there is no
language modifying U.S. Filter/JWI, Inc. to include any
successors or assigns, and (2) Evoqua was incorporated
in 2013 and is not the same entity as U.S. Filter/JWI,
Inc.
A. Evoqua is not U.S. Filter/JWI
Evoqua argues that Petitioners ask this Court to
resolve “a factual dispute it has tried to create
regarding Evoqua’s status as a successor-in-interest” to
U.S. Filter/JWI, Inc. Respondent’s Brief, at 16. Evoqua
does not deny that it was newly formed in 2013, nor
does it assert that it is actually U.S. Filter/JWI, Inc.
Evoqua asserts that it “is the real party in interest
under Federal Rule of Civil Procedure 17 with respect
to the 2003 Litigation, or at least the transferee of the
interest in the litigation under Federal Rule 25(c).”
Respondent’s Brief, at 17. In its opinion finding that
the 2003 Consent Decree was not assignable, the
district court held that “Rule 25(c) does not determine
whether Evoqua can enforce the consent judgment” and

3
“Evoqua cannot now insert itself as a party to the
consent judgment, or expand the scope of the agreedupon judgment to give itself enforcement rights.” App.
114. Evoqua’s Rule 25(c) arguments are another
attempt to go outside the “four corners” of the 2003
Consent Decree.
B. The Consent Decree Does Not Contain
Any Language Regarding Assignability
by U.S. Filter/JWI
The 2003 Consent Decree was a carefully negotiated
agreement between U.S. Filter/JWI, Inc. and
Petitioners. It includes “successors and assigns”
language as to Petitioners, but no such language for
U.S. Filter/JWI, Inc. App. 123. It is telling that the
parties were able to use this “successors and assigns”
language for one party and not the other.
II.

The Sixth Circuit Did Not Apply This
Court’s Precedents Properly

In Armour this Court expressly held that a consent
decree must be construed as it is written. U.S. v.
Armour & Co., 402 U.S. 673, 681–682 (1971). Within
the “four corners” of the 2003 Consent Decree, there is
no reference to any successor or assign of U.S.
Filter/JWI, Inc. Evoqua was not, and still is not, a
party to the 2003 Consent Decree, and therefore cannot
enforce it. App. 114. In Blue Chip Stamps, this Court
further opined that “a well settled line of authority
from this Court establishes that a consent decree is not
enforceable directly or in collateral proceedings by
those who are not parties to it, even though they were

4
intended to be benefited by it.” Blue Chip Stamps v.
Manor Drug Stores, 421 U.S. 723, 750 (1975).
A. The Sixth Circuit Ignored Controlling
Supreme Court Precedent
After citing to Armour and Blue Chip Stamps (App.
10-12), the Sixth Circuit perplexingly leapt to the
conclusion that there was an “absence of controlling
federal law” and turned to its decision in Sault Ste.
Marie for the proposition that “contractual
interpretation of the Consent Judgment is governed by
Michigan law.” App. 11, citing Sault St. Marie v.
Engler, 146 F.3d 367, 372. The Sixth Circuit then relied
on Michigan contract law to hold that “[t]he primary
goal in the construction or interpretation of any
contract is to honor the intent of the parties.” App. 11,
citing Rasheed v. Chrysler Corp., 517 N.W.2d 19, 29
n.28 (Mich. 1994). The Sixth Circuit then held that
because contracts are “freely assignable” under
Michigan state law, that this would apply to the
Consent Decree. App. 11.
The Sixth Circuit made no attempt to explain how
allowing free assignment of the 2003 Consent Decree
complied with this Court’s holding in Blue Chip
Stamps. Rather, it held that “[a] court ‘must look for
the intent of the parties in the words used in the
instrument.’” App. 11, citing Mich. Chandelier Co. v.
Morse, 297 N.W. 64, 67 (Mich. 1941).
The Sixth Circuit even ignored the Michigan
contract law it purported to apply because, while it
“must look for the intent of the parties in the words
used in the instrument,” it cited to no words in the

5
instrument that it was interpreting – it simply found
the 2003 Consent Decree “silent” as to assignability
and grafted the right of assignment onto the 2003
Consent Decree. App. 11, 14, citing Michigan
Chandelier Co. v. Morse, 297 N.W. 64, 67 (Mich. 1941).
Once the Sixth Circuit looked to Michigan contract law,
it ceased interpreting the 2003 Consent Decree within
its four corners, ceased following Armour, and ceased
following Blue Chip Stamps by allowing a consent
decree to be enforced by an entity that was not a party
to it. Evoqua’s argument that the “Sixth Circuit was
correct to look to state law as part of the ordinary tools
of contract construction” (Respondent’s Brief, at 28) is
misplaced and ignores the well-settled “four corners”
rule of Armour.
Evoqua’s claim that the 2003 Consent Decree
should be interpreted only in the context of the
enjoined party’s conduct is also without merit.
Respondent’s Brief, at 29-30. It is logical that scrutiny
should be placed on consent decrees and who can
enforce them because a party with the right to enforce
an injunction can bring the full force of the federal
court system upon a party in contempt proceedings.
Great care should be taken to ensure that a party who
was not named in a consent decree cannot enforce it
upon an unaware victim.
B. The Continued Viability of Armour is
Eviscerated by the Sixth Circuit
Opinion
Evoqua makes the unsubstantiated argument that
“[t]he Sixth Circuit did not depart from the fourcorners rule or rely on parol evidence when it construed

6
the Permanent Injunction [the 2003 Consent Decree] to
be assignable.” Respondent’s Brief, at 19. This is false
because that is exactly what the Sixth Circuit did. In
finding that there was an “absence of controlling
federal law” (even after citing to Armour and Blue Chip
Stamps), the Sixth Circuit held that “contractual
interpretation of the Consent Judgment is governed by
Michigan law.” App. 11, citing, Sault St. Marie, 146
F.3d at 372.
The error by the Sixth Circuit is clear: it turned to
contractual “aids to construction” to inject terms that
unambiguously were not within the four corners of the
2003 Consent Decree. While this Court has held, in
U.S. v. ITT Continental Baking Co., 420 U.S. 223, 238
(1975), that reliance on certain “aids to construction” is
proper for construing ambiguous terms found in a
consent decree, the ITT decision did not overturn
Armour. In Stotts, this Court reinforced the restrictive
reading of consent decrees by applying the “four
corners” rule of Armour. Firefighters Local Union No.
1784 v. Stotts, 467 U.S. 561, 562 (1984). Armour may
be reconciled with ITT as permitting courts to use socalled “aids to construction” to interpret ambiguous
terms that appear within the four corners of a consent
decree. This is not the case here.
Evoqua cites to Sprint Communications Co. v.
APCC Services, Inc., for the proposition that when the
“assignee receives the transfer of all rights, title, and
interest in a claim, they are asserting ‘legal rights of
their own.’” Respondent’s Brief, at 16, citing Sprint,
554 U.S. 269, 290 (2008). Sprint appears to be wholly
irrelevant to the issues at hand in this case as it dealt

7
with the practice of aggregator companies taking
assignments of money judgments at a discount from
payphone operators to sue non-paying phone companies
in bulk. Sprint does not mention Armour or Blue Chip
Stamps, nor does it relate to the enforcement of a
consent decree by someone who is not a party to it, nor
does it deal with the assignability of an injunctive
consent decree issued by a federal court.
III.

Petitioner Does Not Ask This Court to
Resolve Questions of State Law

Evoqua’s assertion that this case is about applying
the contract law of one state in regard to assignability
versus that of another state is nonsensical because,
under Evoqua’s argument, both Courts would be
applying the same state law contractual principles.
Petitioners’ request is actually the converse: that it was
inappropriate for the Sixth Circuit to turn to state law
at all to provide for assignability for a consent decree
that is silent as to assignability. Armour states that the
scope of the consent decree must be found within its
“four corners” and Blue Chip Stamps holds that nonparties to a consent decree cannot enforce it. To find
otherwise ignores this Court’s precedent.
The state contract law of Michigan and Illinois both
call for the general proposition that contracts are
assignable. See, Shah v. State Farm Mutual
Automobile Insurance Company, 324 Mich. App. 182
(2018), citing Burkhardt v. Bailey, 260 Mich. App. 636,
652 (2004) (“Under general contract law, rights can be
assigned unless the assignment is clearly restricted”);
Plumb v. Fluid Pump Services, Inc., 124 F.3d 849, 864
(7th Cir. 1997), citing Moutsopoulos v. American Mut.

8
Ins. Co., 607 F.2d 1185, 1189 (7th Cir. 1979)
(“[e]lementary contract law provides that upon a valid
and unqualified assignment the assignee stands in the
shoes of the assignor and assumes the same rights,
title and interest possessed by the assignor”).
The Sixth Circuit reviewed the 2003 Consent
Decree, found it silent as to assignability, and turned
to Michigan contract law to hold it to be freely
assignable. Faced with a virtually identical fact
pattern, the Federal Circuit held the exact opposite in
Thatcher, finding the consent decree in that case was
not assignable when it was silent as to that issue.
Thatcher v. Kohl’s Department Stores, Inc., 377 F.3d
1370, 1374 (Fed. Cir. 2005). The Federal Circuit went
on to explain: “This silence is the functional equivalent
of the parties’ express intent to exclude language of
assignment. Equally as telling is that the consent
judgment specifies successors and assigns when listing
Kohl’s obligations.” Thatcher, 397 F.3d at 1375. The
Federal Circuit correctly applied this Court’s “four
corners” rule of Armour. For Evoqua to represent to
this Court that the Thatcher court applied Illinois state
contract law is disingenuous.
Nothing in Petitioners’ request for review by this
Court involves a complaint that the Sixth Circuit
applied incorrect state law; rather, it never should have
applied state law in the first place. In this case, the
Sixth Circuit applied Michigan state contract law to
“fill in the gap” (App. 13-14) with language permitting
assignment (when no such language was present
within the four corners) while the Federal Circuit in

9
Thatcher found the lack of language allowing
assignability as to one party to be a bar to assignment.
This is precisely the type of issue that the Court
should review and is of significant importance as it
would provide clarity across the circuits when dealing
with the enforcement of consent decrees.
IV.

Petitioners’ Request for Review Identifies
a Stark Split in the Circuits

There is a clear and unmistakable split between the
Sixth Circuit’s decision in this case and the Federal
Circuit’s Thatcher decision. Cf., App. 12-15, with
Thatcher, 397 F.3d at 1375. Evoqua’s position that this
stark disagreement between these circuits is
immaterial defies logic. In one circuit, lack of language
as to assignability was dismissed in favor of the “freely
assignable” principles of state contract law, and in
another, the exact same absence of language regarding
assignability was found to be a complete bar to
enforcement by successors and assigns consistent with
Armour.
The Sixth Circuit’s decision here is also split from
its own prior decisions. In Huguley v. General Motors
Corp., 67 F.3d 129 (1995), the court relied on Armour
and found a consent decree could not be enforced by a
successor. Evoqua improperly attempts to explain away
Huguley, arguing that construction of the consent
decree at issue was a matter of contract interpretation.
Perhaps Judge Bush said it best in his concurring
opinion when he interlineated the facts of this case
within the Huguley quote from the Sixth Circuit:

10
Therefore, applying federal common law, the
agreement would not be read to tether the
defendants’ obligations to the specific
intellectual property regardless of who owns it.
Instead, the agreement, as written, reflects the
parties’ intent to bind the defendants to the
intellectual property at issue when it is owned
by U.S. Filter/JWI. To hold otherwise, would
depart from the parties’ intended arrangement.
See Huguley, 67 F.3d at 133 (“A consent decree
is a contractual agreement and, if the parties
have agreed not to impose [enforcement by
successors-in-interest or assigns], the
district court is not free to reform the
contract to compensate one party for
making a bad bargain.”).
App. 52 (emphasis added). Yet the Sixth Circuit did
exactly that when it reformed the 2003 Consent Decree
with the Michigan state law free assignment principle.
This is an inconsistent application by the Sixth Circuit
of its own precedent.
Evoqua turns to John Wiley & Sons, Inc. v.
Livingston, 376 U.S. 543 (1964), arguing that this case
is “similar” to John Wiley in that union employees’
rights do not automatically terminate if the corporate
employer disappears due to a merger. Respondent’s
Brief at 25. This is an important distinction, because
while U.S. Filter/JWI, Inc. was merged into various
entities, none of those entitles was Evoqua. Evoqua
purchased certain assets that were spun-off from
Siemens Industry, Inc. through a carve-out agreement
(opposite of a merger). App. 109. Evoqua cites

11
additional cases from the First, Eleventh, and Sixth
Circuits in support of its misguided proposition, all of
which are related to mergers of entire corporate
entities, and are inapplicable to the case at hand.
Respondents Brief, at 26. In any event, this argument
only serves to exacerbate the split between the circuits.
Evoqua raises the specter again that the Sixth
Circuit was simply performing an exercise of “contract
interpretation” when it determined that silence as to
assignability was correctable by application of
Michigan state contract law. Respondent’s Brief, at 26.
This is incorrect. The Sixth Circuit was not
interpreting language in the 2003 Consent Decree, but
rather it was grafting language onto the consent decree
that was not there. That is a critical difference. When
the Sixth Circuit pointed to Sault Ste Marie as the
basis for doing so, it was misguided in its approach. In
Sault Ste Marie, the Sixth Circuit was attempting to
interpret “exclusive right to operate,” language that
appeared within the consent decree at issue in that
case, and applied Michigan contract law in doing so.
Sault St. Marie, 146 F.3d at 372. Here, the Sixth
Circuit improperly extended Sault Ste Marie to insert
language allowing assignability of the 2003 Consent
Decree that did not include any such language to be
interpreted.
Evoqua claims that Petitioners’ argument relating
to U.S. v. FMC Corp., 531 F.3d 813 (9th Cir. 2008), is
an attempt to address “alleged errors in a decision of
another circuit.” Respondent’s Brief, at 27. This is not
the case. Petitioners raise this case not in an attempt
to address an error in another circuit, but rather as an

12
example of another circuit that treats silence as to
assignability of a consent decree differently. In FMC,
the Ninth Circuit has taken an approach that
illustrates a third interpretation of the “four corners”
rule of Armour and the holding of Blue Chip Stamps by
holding that intended third party beneficiaries could
enforce consent decrees, which is directly contrary to
the holding of Blue Chip Stamps that prohibits
enforcement of consent decrees by entities that are not
parties to them even if they are intended to be
benefited by them. FMC, 531 F.3d at 819-820; cf. Blue
Chip Stamps, 421 U.S. at 750. FMC further
demonstrates the need for this Court to grant certiorari
and address the split between the circuits.
CONCLUSION
For the reasons set forth above, Petitioners
respectfully request that the Court grant their Petition
for Certiorari to correct this unprecedented decision
from the Sixth Circuit and provide clarity to all circuits
on how assignability and enforceability should be
interpreted only within the four corners of the consent
decree and silence as to these issues establishes that
the consent decree is not enforceable by anyone who is
not a party to it.

13
Respectfully submitted,
G. Thomas Williams
Counsel of Record
McGarry Bair PC
45 Ottawa Ave. SW, Suite 700
Grand Rapids, MI 49503
Tel: 616-742-3500
Fax: 616-742-1010
gtw@mcgarrybair.com
Counsel for Petitioners
Date: April 17, 2020

